HHS/OIG-Audit-"Inpatient Hemodialysis Procedure Services Provided by East Bay Nephrology Medical Group, Inc.," (A-09-01-00067)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Inpatient Hemodialysis Procedure Services Provided by East Bay Nephrology
Medical Group, Inc.," (A-09-01-00067)
August 14, 2001
Complete
Text of Report is available in PDF format (367 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This
audit report presents the results of our review of inpatient hemodialysis procedure
services provided to Medicare beneficiaries by East Bay Nephrology Medical Group,
Inc. (Group) in Calendar Years 1998 and 1999.  Based on a review of a statistical
sample of Medicare claims, we are 95 percent confident that the Group received
a total overpayment of at least $3,418.  We recommended that the Group
refund the overpayment to the Medicare program.  We also recommended that
the Group ensure that its Compliance Manual should be fully followed so that
the Medicare requirements for billing hemodialysis procedure services were met
before billing Medicare for such services.